           OIG Quality Standards for Alternative Products
OIG policy is that selected basic principles contained in the Government Auditing Standards 1
(General Standards and Fieldwork and Reporting Standards for Performance Audits),
Quality Standards for Investigations, and Quality Standards for Inspections 2 will apply to
alternative product assignments. The basic principles, as adapted for alternative product
assignments, are as follows:
    •   In all matters related to the assignment, the OIG and individual staff should be free from
        personal, external, and organizational impairments to independence and should avoid the
        appearance of such impairments of independence.
    •   Staff should collectively possess adequate professional competence for the tasks
        required.
    •   Professional judgment should be used in planning and performing the assignment and
        reporting the results.
    •   Assignments should be adequately planned.
    •   Managers should properly supervise staff performing the assignment.
    •   Staff should be alert to possible fraud, other illegal acts, and abuse while conducting their
        work.
    •   Sufficient and appropriate data and other information should be obtained to provide a
        reasonable basis for conclusions and recommendations/suggestions.
    •   Alternative products should present data and information accurately and objectively and
        present conclusions and recommendations/suggestions in a persuasive manner.
    •   Relevant documentation generated, obtained, and used to support conclusions should be
        retained for an appropriate period of time.
    •   Alternative product assignments and the resulting products should be subjected to the
        OIG’s system of quality control.




1
 The publication titled Government Audit Standards (July 2007) was issued by the U.S. Government Accountability
Office. The standards are available at http://gao.gov/govaud/ybk01.htm.
2
  The publications titled Quality Standards for Investigations (December 2003) and Quality Standards for Inspections
(January 2005) were jointly issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency. The two councils were later combined to form the Council of Inspectors General on
Integrity and Efficiency. The standards are available at http://www.ignet.gov/pande/standards1.html.
